IN THE SUPREME COURT OF THE UNITED STATES
No. ________
SHANIKA DAY AND HARVEY MORGAN,
PETITIONERS,
V.
FRANKLIN WOOTEN AND RANDALL DENNY,
RESPONDENTS.
CERTIFICATE OF COMPLIANCE
1. This document complies with the word limit of Supreme Court Rule 33
because, excluding the exempted parts of the document, this document
contains 8,486 words. (9,000 max)
2. This document complies with the typeface requirements of Supreme Court
Rule 33 and because the text of the document, including the appendix, is
typeset in Century 12-point type with 2-point or more leading between
lines, and footnotes in Century 10-point type with 2-point or more leading
between lines.
Dated: October 9, 2020

/s/ Nathaniel Lee
Nathaniel Lee, Esq.
LEE, COSSELL & CROWLEY, LLP
Faith E. Alvarez, Esq.

Counsel of Record

LEE, COSSELL & CROWLEY, LLP
151 N. Delaware Street, Ste. 1500
Indianapolis, Indiana 46204
Phone: (317) 631-5151
Fax: (317) 624-4561
nlee@nleelaw.com
falvarez@nleelaw.com

Attorneys for Petitioners

